                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
                                                  i


11   Case Number: A-04080054                                                                  Page 1 of 1       11
          We received an allegation that the subject's NSF               contained the same project idea
          (intellectual theft) as the complainant's earlier collaborative NSF proposal.2 The complainant
          explained that he had reviewed the NSF Website for awards and observed that the subject had
          received an award for his idea.

          Our review determined that the project idea presented in each proposal was not unique to either
          complainant or subject. The project idea was a common project idea publicly encouraged by
          their scientific community. In addition, our closer comparison of the two NSF proposals showed
          that, although each used some common techniques, the actual proposed approaches were
          significantly different. We concluded that there was no substance to the allegation of intellectual
          theft against the subject.

          This case is closed and no further action will be taken.




 NSF 01G Form 2 (1 1/02)
